No. 20-1486
IN THE SUPREME COURT OF THE UNITED STATES
_________________
EMPIRE HEALTH FOUNDATION,
FOR VALLEY HOSPITAL MEDICAL CENTER,
CROSS-PETITIONER
v.
XAVIER BECERRA,
SECRETARY OF HEALTH AND HUMAN SERVICES
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE CROSS-RESPONDENT IN OPPOSITION, via e-mail and first-class
mail, postage prepaid, this 24th day of May 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contain 8,265 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
May 24, 2021

Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
May 24, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

20-1486
EMPIRE HEALTH FOUNDATION, FOR VALLEY
HOSPITAL MEDICAL CENTER
XAVIER BECERRA, SECRETARY OF HEALTH AND
HUMAN SERVICES

DANIEL J. HETTICH
KING & SPALDING LLP
1700 PENNSYLVANIA AVENUE, NW
SUITE 200
WASHINGTON, DC 20006
202-626-9128
DHETTICH@KSLAW.COM
ANNE M. VOIGTS
KING & SPALDING LLP
601 S. CALIFORNIA AVE.
SUITE 100
PALO ALTO, CA 94304
650-422-6700
AVOIGTS@KSLAW.COM

